No. 21-187
IN THE

Supreme Court of the United States
HAMDI MOHAMUD,
Petitioner,
v.
HEATHER WEYKER,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 9th day of September, 2021, I caused three copies of the Brief of the
American Civil Liberties Union, Cato Institute, DKT Liberty Project, Goldwater
Institute, Law Enforcement Action Partnership, and New Civil Liberties Alliance as
Amici Curiae in Support of Petitioner to be served by third-party commercial carrier on
the counsel identified below, and caused an electronic version to be transmitted to the
counsel identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties
required to be served have been served.
Patrick Michael Jaicomo
INSTITUTE FOR JUSTICE
901 North Glebe Road
Suite 900
Arlington, VA 22203
(703) 682-9320
pjaicomo@ij.org

Brian H. Fletcher
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530
202-514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner
Counsel for Respondent

/s/ Theane Evangelis
Theane Evangelis

